U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Xavier Becerra, Secretary of Health and Human Services v.
Empire Health Foundation, for Valley Hospital Medical Center,
No. 20-1312

Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on July 2, 2021. On
behalf of both parties, we respectfully request that the time for filing petitioner’s opening brief and
the joint appendix be extended to and including September 1, 2021; and that the time for filing
respondent’s brief be extended to and including October 18, 2021. If those extensions are granted,
petitioner’s reply brief would be due 30 days after the filing of respondent’s brief (or at the time
specified in Rule 25.3).
Counsel for both parties consent to these extensions of time.
Sincerely,
/s/
Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1312
BECERRA, XAVIER, SECRETARY OF HEALTH AND
HUMAN SERVICES
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER

DANIEL J. HETTICH
KING & SPALDING LLP
1700 PENNSYLVANIA AVENUE, NW
SUITE 200
WASHINGTON, DC 20006
202-626-9128
DHETTICH@KSLAW.COM
TERESA A. SHERMAN
PAUKERT & TROPPMAN, PLLC
522 W. RIVERSIDE AVE.
SUITE 560
SPOKANE , WA 99201
509-232-7760
TSHERMAN@PT-LAW.COM
ANNE MARGARET VOIGTS
KING & SPALDING LLP
633 WEST FIFTH STREET
SUITE 1600
LOS ANGELES, CA 90071
213-443-4355
AVOIGTS@KSLAW.COM

